AUDIT OF SECURITIZATION RTC 1992-C4



         Audit Report No. 00-020
               June 7, 2000




         OFFICE OF AUDITS

  OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                                Office of Audits
Washington, D.C. 20434                                                                   Office of Inspector General




   DATE:            June 7, 2000

   TO:              James R. Wigand
                    Deputy Director
                    Franchise and Asset Marketing Branch
                    Division of Resolutions and Receiverships



   FROM:            Sharon M. Smith
                    Assistant Inspector General

   SUBJECT:         Securitization RTC 1992-C4 (Audit Report No. 00-020)


   This report presents the results of the Office of Inspector General's (OIG) audit of securitization
   1992-C4. Although, generally, the servicing fees were properly calculated, we found problems
   with realized loss calculations and with interest paid to certificateholders after loan liquidation.
   This report is the third OIG report issued in the last several years relating to commercial
   securitizations. The OIG previously issued reports entitled RTC's Securitization Reserve Fund
   (Audit Report No. 96-143), dated December 31, 1996, and Securitization Credit Enhancement
   Reserve Fund 1992-CHF (Audit Report No. 98-083), dated October 7, 1998.


   BACKGROUND

   From 1991 to 1995 the Resolution Trust Corporation (RTC) created a total of 73 securitized
   transactions. These transactions were backed by collateral consisting of one-to-four family
   residential mortgage loans, multi-family mortgage loans, commercial mortgage loans, and other
   types of mortgage loan pools. The RTC was the designated seller and had few defined
   responsibilities relative to these securitized transactions after closing. However, the RTC and its
   successor, the Federal Deposit Insurance Corporation (FDIC), have a substantial financial
   interest in these securitizations.1 The FDIC now owns the Class R (residual) certificates from
   each transaction and the amounts remaining in the credit enhancement reserve funds.

   The RTC funded credit enhancement reserves for each securitization. These reserve funds are
   designed to protect certificateholders by providing funds to cover principal lost by defaulted
   loans. Any resulting realized losses impact the reserve fund. Realized losses are defined in the
   securitization’s Pooling and Servicing Agreement (PSA) as the unpaid principal balance of a

   1
    In accordance with the RTC Completion Act of 1993, the RTC ceased operations on December 31, 1995.
   Responsibility for all RTC-related work was transferred to the FDIC effective January 1, 1996.
mortgage, plus accrued interest and expenses, minus net owned real estate (ORE) proceeds, net
liquidation proceeds, or insurance. After a securitization is terminated, any remaining unused
credit reserve funds revert to the FDIC.

Securitization 1992-C4 was initiated on June 24, 1992 and was comprised of 2,683 commercial
loans with an aggregate principal balance over $935 million. The four most prominent loan
types included in the securitization were office buildings, mixed-use buildings, retail outlets, and
industrial/warehouse structures. The credit enhancement reserve fund for securitization 1992-C4
was established with a deposit of $280.8 million, or approximately 30 percent of the aggregate
principal loan balances.

RTC, the master servicer, the special servicer, and the trustee signed a PSA at closing that
described the obligations of the trustee and servicers. GE Capital Asset Management
Corporation (GE Capital), as the master servicer, had primary responsibility for servicing the
mortgage loans. GMAC Commercial Mortgage Corporation purchased the master servicing
rights and began servicing on November 14, 1997. The master servicer maintained a collection
account for deposits of principal and interest payments, all insurance proceeds relating to loans,
income from loans that became ORE, and borrower expense reimbursements. The master
servicer also deposited money to the collection account for late payments on specially serviced
loans, assumption fees, modification fees, and other similar fees.

Each month, Chase Manhattan Bank (Chase), the trustee, calculated the amounts to be
distributed to certificateholders. The trustee used a mathematical model to combine data
supplied by the master servicer with various certificate classes, as described in the PSA, to
determine distributions to the various certificate classes. Chase maintained its model on a
computer spreadsheet that incorporated PSA information such as certificate rates and payment
priority. The trustee used the funds wired from the master servicer's collection account to the
distribution account for payments to the certificateholders. The trustee also maintained the
reserve fund. The trustee replenished any collection account shortages with funds withdrawn
from the reserve fund.

J.E. Robert Companies, Inc. (J.E. Robert), the special servicer, was responsible for servicing loans
that met certain default criteria and required special servicing. The master servicer classified loans
as special serviced loans and transferred them to the special servicer. Special serviced loans included
loans with a past due balloon payment, loans over 60 days delinquent, delinquent loans that were
expected to be cured by the borrower within 60 days, and loans involving court actions against the
borrowers.

In addition to the ordinary servicing of loans, the special servicer was also responsible for
calculating pool value reductions resulting from the discounting of mortgage loans when loans
were modified or foreclosed. Under these circumstances, the special servicer performs a net
present value calculation to determine the discounted principal balance of the modified loan. If
the discounted principal balance is less than the scheduled principal balance, the trustee
withdraws the difference from the reserve fund and the difference is distributed to the
certificateholders as a payment of loan principal, or pool value reductions.




                                                  2
As compensation for its various responsibilities under the PSA, the special servicer receives monthly
fees of (1) 150 basis points on the specially serviced loan unpaid principal balances, (2) an
additional 50 basis points for supplemental servicing fees, and (3) a workout fee varying between
130 and 245 basis points (a basis point is equal to 1 hundredth of 1 percent).


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether J.E. Robert correctly calculated realized
losses and special servicer fees. We selected securitization 1992-C4 for audit because the
securitization was scheduled to terminate in 1999. Our audit covered the period June 1992
through March 1999.

To accomplish the audit objectives, the OIG interviewed mortgage-backed securities (MBS)
specialists from the FDIC’s Division of Resolutions and Receiverships (DRR) and personnel
from GMAC Commercial Mortgage Corporation; J.E. Robert; and Chase Manhattan Bank. The
auditors reviewed the prospectus, the prospectus supplement, and the PSA for securitization
1992-C4. The OIG also reviewed the most recent Agreed-Upon Procedures Reviews, conducted
at the FDIC's request, for GE Capital , the former master servicer (November 1994); the special
servicer (October 1994); and the trustee (July 1999 draft).

J.E. Robert’s special servicer portfolio manager provided us a universe of 503 realized losses
totaling $56,288,302 for securitization 1992-C4. To determine whether realized losses included
pool value reductions on Discounted Mortgage Loans (DMLs), we requested the universe of
DMLs and received a list of 160 with $35,226,053 in pool value reductions. We matched the
realized losses and DML universes to ensure that some of the sampled realized losses also had
pool value reductions. We judgmentally selected nine realized losses of various disposition
types and dollar amounts, representative of the universe, totaling $8,287,969. Six of the selected
losses included pool value reductions. Our sample of nine realized losses included six ORE
sales, two loans sold at foreclosure, and one abandoned apartment complex.

We reviewed special servicer’s asset files for each of the nine realized losses in our sample. From
these files we reviewed the settlement statements and other disposition documents to confirm the
amount of the net proceeds. We reviewed loan histories and amortization schedules to verify the
proper amount of principal and interest, the unpaid principal balances, and the inclusion of pool
value reductions in the realized losses. We reviewed the adequacy of the documentation supporting
the expenses charged to the realized losses. We also looked for any proceeds other than sale
amounts, such as insurance premium refunds, utility deposit refunds, additional judgments, and real
estate tax refunds.

For two of the sampled realized losses, we traced ORE net proceeds wired from the special servicer
to the master servicer's collection account, the trustee distribution account, and finally to the
certificateholder distribution. We selected only two realized losses because of the complexity in
tracing the information through several entities. We verified that the master servicer’s
documentation and files agreed with the special servicer's records. We then traced the master



                                                 3
servicer's wire of the collection account funds to the trustee's distribution account and finally to the
certificateholders.

In addition, we performed limited testing of the model the trustee used to calculate the distributions
to the various certificate classes. We input additional payoffs and principal reductions into the
model to determine whether the model correctly changed the distribution amounts and adjusted the
reserve fund withdrawals accordingly.

For the review of special servicer fees, we judgmentally sampled 15 of the 84 months covered by our
audit to determine the accuracy of the initial booking and removal dates for billing specially serviced
assets. We then examined 4 of the 15 months in detail to determine the accuracy of the special
servicer's computerized billings. We compared the special servicer’s beginning balance on the
database of loans for these 4 months, by group, with the master servicer’s ending balance, giving
consideration to loans added to the special servicing pool. We confirmed the accuracy of the special
serviced asset receipt date and removal date by tracing the assets to the disposition receipt/removal
report obtained from the master servicer. We compared the applicable special servicing rate and
basic fee rate to the approved contracted rate within the PSA. In addition, to determine the accuracy
of receipt dates and billing removal dates for the sample realized losses, we compared the dates on
the special servicer disposition receipt/removal reports to the dates supported by the loan files.

We also judgmentally sampled 12 specially serviced assets within the universe of realized losses
to determine the accuracy of workout fee calculations and rates. To do so, we compared month-
end collection balances and final proceed balances with J.E. Robert account summaries and
traced related expenses and invoices to J.E. Robert’s expense roll-up report. We compared the
workout fee rate to the applicable contract rate within the PSA.

The OIG did not perform a comprehensive review of J.E. Robert’s internal controls. Instead, we
relied on substantive testing to achieve our audit objectives. We performed our work primarily
at the special servicer's office in Dallas, Texas; the trustee's office in New York, New York; the
master servicer's office in Horsham, Pennsylvania; and the FDIC’s offices in Washington, D.C.
The audit was conducted from February 1999 through October 1999 in accordance with
generally accepted government auditing standards.


RESULTS OF AUDIT

Generally, J.E. Robert calculated its special servicing and workout fees for securitization
1992-C4 in accordance with the PSA. For calculating special servicing fees, the special servicer
took the necessary steps to ensure that asset receipt and disposition data was correct and that the
correct PSA servicing fee was applied for each month. For workout fees, the special servicer
maintained accurate collection and final proceeds balances and applied the applicable contract
rate per the PSA.

Although J.E. Robert billed for its services in accordance with the PSA, we identified problems
associated with its realized loss calculations. First, the special servicer did not always complete
realized loss computations in a timely manner. Consequently, the master servicer continued to
schedule principal and interest payments to the certificateholders for five of our nine realized


                                                    4
losses in our sample, thereby unnecessarily paying certificateholders an average of 4 months of
interest from reserve funds. Second, the realized loss calculations related to the six DMLs in our
sample included pool value reductions already taken on the same loans, thus overstating the
amounts in the trustee’s reports to certificateholders and the FDIC.


THE SPECIAL SERVICER’S REALIZED LOSS CALCULATIONS WERE NOT
COMPLETED TIMELY

For five of the nine realized losses sampled, the special servicer completed realized loss
calculations more than 1 month after the sale or liquidation of the assets. When the special
servicer delayed the realized loss calculations, the master servicer continued to treat the loans as
delinquent and continued scheduling principal and interest payments on the remaining principal
balances. Thus, the certificateholders continued to receive interest on loans that had been
liquidated months earlier. For the five realized losses, the average delay between the actual loan
liquidation and the date the special servicer calculated the realized loss was 4 months.

The net cost to the reserve fund was minimal when the off-set for interest earned by the reserve
fund on the principal amount is taken into account. That is, by not writing-off the principal
balances timely and distributing the principal to the certificateholders, the principal remained in
the reserve fund where it was invested in short-term Treasury securities and earned interest at the
U.S. Treasury Bill rate. At the same time, the master servicer calculated interest to be distributed
to the certificateholders on the same principal balances but at the higher certificate rate.
Therefore, the real loss to the securitization is the difference, or spread, between the Treasury
Bill interest received while the principal remained in the reserve fund and the higher interest paid
to certificateholders.

When the special servicer was asked why it did not calculate realized losses more timely, special
servicer personnel stated that they usually delayed calculating realized losses while they
continued pursuing deficiencies from the borrowers. They cited language in the PSA that, they
believe, allowed them to hold a loan open after a sale to pursue deficiency judgments.
Specifically, the PSA section regarding Final Recovery Determination reads that the asset could
be held until "(i) the actual recovery of the full amount of all Insurance Proceeds, Liquidation
Proceeds and other payments or (ii) recoveries (including proceeds of the final sale of any ORE
property)." We believe that the PSA is somewhat vague regarding exactly when the special
servicer is to compute realized losses and this vagueness was a contributing factor leading to the
special servicer’s delay in computing realized losses.

Although the PSA provision does not clearly indicate that the sale of ORE “must” trigger the
final recovery and realized loss calculation, MBS personnel stated that assets should be written
off and realized losses should be calculated promptly. Further, MBS advised us that despite
some early confusion about loan write-offs for securitizations, in 1994 MBS notified all servicers
that they should promptly write off loans after ORE liquidation. Master servicer personnel also
stated that the special servicer should have calculated realized losses in a more timely manner.
However, the master servicer explained that, under the PSA, the master servicer was not
permitted to take any action to write off specific loan balances until directed to do so by the
special servicer.


                                                 5
Conclusion and Recommendations

We recognize that the dollar effect of the additional interest paid to certificateholders may be
small on a loan-by-loan basis. However, the amount of additional interest could be significant
when the total number of loans handled by J.E. Robert and other special servicers are considered.

Accordingly, we recommend that the Deputy Director, Franchise and Asset Marketing Branch,
DRR:

(1)    Issue a letter to all special servicers reiterating the importance of calculating realized
       losses in a timely manner.

(2)    Ensure that future Agreed-Upon Procedures Reviews include steps for determining the
       timeliness of the special servicers’ realized loss calculations.


THE SPECIAL SERVICER’S REALIZED LOSS CALCULATIONS DUPLICATED
PRIOR POOL VALUE REDUCTIONS

The special servicer’s realized loss calculations for the six DMLs in our sample included pool
value reductions that were already taken on the same loans. Specifically, for the six loans, the
special servicer’s realized loss calculations did not identify pool value reductions totaling
$3,440,190 previously withdrawn from the reserve fund. As a result, the realized losses for the
six loans were overstated and inaccurate data was used to develop allowance accounts appearing
in the FDIC’s financial statements.

In one example, in February 1995, the special servicer reported a $964,772 pool value reduction
on a loan to the master servicer. Based on this information, the trustee withdrew that amount out
of the reserve fund for distribution to certificateholders. In August 1996, the loan was foreclosed
and the underlying property was sold, at which time, the special servicer computed a realized
loss of $1,831,070 based on the final principal balance of $1,864,729. However, the special
servicer did not reduce the final principal balance by the $964,772 pool value reduction that it
had reported earlier. As a result, when the trustee reported the realized loss to the
certificateholders and the FDIC, the realized loss was overstated by the $964,772 pool value
reduction already taken and reported.

When asked why it did not account for previous pool value reductions when calculating realized
losses on the six DML loans in our sample, the special servicer said the master servicer was
responsible for maintaining DML balances. We also noted that, although the PSA defines pool
value reductions and provides a methodology for calculating realized losses, the PSA does not
address the issue of duplicating pool value reductions in realized loss calculations.




                                                  6
It is important to note that there is no dollar effect related to this improper reporting. The impact
to the FDIC is limited to its use of pool value reduction and realized loss information in
determining allowance accounts in the FDIC’s financial statements.


Conclusion and Recommendations

Realized losses and pool value reductions are reported to the FDIC on the monthly Statement to
Certificateholders. The FDIC uses both pool value reductions and realized losses in its financial
statements and maintains allowances for realized losses and pool value reductions based on
historical data that is assumed to be accurate and not overstated.

However, to minimize the possibility that realized loss calculations reported to the FDIC
duplicate previous pool value reductions, we recommend that the Deputy Director, Franchise and
Asset Marketing Branch, DRR:

(3)    Ensure that future PSAs make clear that the calculation of realized losses should take into
       account previously taken pool value reductions.

(4)    Issue a letter to the special servicers requesting them to identify, in future realized loss
       calculations, pool value reduction amounts already taken.

(5)    Issue a letter to the trustees requesting them to inform the FDIC and the certificateholders of
       pool value reductions included in the reported realized loss calculations.


CORPORATION COMMENTS AND OIG EVALUATION

On May 18, 2000, the Deputy Director of DRR’s Franchise and Asset Marketing Branch
provided a written response to a draft of this report. The Deputy Director’s response agreed with
the recommendations and provided the requisites for a management decision on each of the five
recommendations. The Deputy Director’s response is presented as appendix I of this report.

A summary of the Deputy Director’s response to recommendation 2 and our analysis follows.
The responses to recommendations 1, 3, 4, and 5 are not summarized because the actions
planned or completed are identical to those recommended.

Include steps for determining the timeliness of the special servicers’ realized loss
calculations in future Agreed-Upon Procedures Reviews performed at the FDIC’s request
by contract auditors (recommendation 2): The Deputy Director stated that “The Agreed Upon
Procedures work programs since early 1994 have included steps to verify that the realized loss
calculations are prepared accurately and filed on a timely basis.” Further, the Deputy Director
provided us a copy of the current agreed upon procedures, which clearly include a step to
determine whether realized loss calculations are prepared and forwarded timely. Such prior
actions address our recommendation. However, although the proper controls were in place, we
found in our audit that the contract auditor’s procedures did not include a step to verify the
timeliness of the realized loss calculation for Securitization 1992-C4. The auditor included steps


                                                   7
to perform the timeliness check for other securitizations covered in its review—just not for
Securitization RTC 1992-C4. Accordingly, we will revise our recommendation to read: Ensure
that future Agreed-Upon Procedures Reviews include steps for determining the timeliness of the
special servicers’ realized loss calculations. The emphasis is on ensuring that contract auditors
perform the required review steps.




                                                8
                                                                                    APPENDIX I
                                       CORPORATION COMMENTS
               FDIC
               Federal Deposit Insurance Corporation
               Division of Resolutions and Receiverships
               Washington, D.C. 20429



                                                           Date: May 16, 2000


Sharon M.Smith
Assistant Inspector General
Federal Deposit Insurance Corporation
Office of the Inspector General
801 17th St., N.W.
Washington, D.C. 20429

                        Re: Draft Audit Report -- Securitization RTC 92-C-4
Dear Ms. Smith:

This letter is in response to the conclusions and recommendations made as a result of the OIG's
audit of the subject securitization. The objective of this audit was to determine if the special
servicer correctly calculated realized losses and special service fees. Generally, the audit found
that the servicing fees were properly calculated. However, the audit did find problems with the
realized loss calculations and the interest paid to certificateholders after loan liquidations.

The report was divided into two parts:

Part I - Finding
The Special Servicer's Realized Loss Calculations Were Not Completed Timely

Recommendations
1. Issue a letter to all special servicers reiterating the importance of calculating realized losses
   in a timely manner.

2. Include steps for determining the timeliness of the special servicers' realized loss calculations
   in future Agreed Upon Procedures' Reviews performed at the FDIC's request by contract
   auditors.

Response

The finding states that when the special servicer delayed the realized loss calculations for five of
the nine realized losses samples, the master servicer continued to treat the loans as delinquent
and continued scheduling principal and interest payments on the remaining principal balances.
The finding indicates that this resulted in inappropriate draws from the Reserve Funds for an
average of four months to pay scheduled interest due to certificateholders.




                                                       9
We concur that realized losses should be calculated and filed with the trustee on a timely basis.
We do not agree that the Pooling and Servicing Agreements (PSAs) give the servicers
considerable latitude in determining when a realized loss should be reported to the trustee based
on a "Final Recovery Determination". However, since 1994, it has been the express policy of
MBS Administration, clearly communicated to the servicers, that realized losses should be filed
on a timely basis after liquidation, with subsequent amendments as appropriate. We will
continue to emphasize this policy to the servicers.

We believe the financial impact of the finding may be less than implied in the report. The PSA
requires that liquidation proceeds received during each prepayment period be reported to the
Trustee and passed through to certificateholders during the related distribution date. The master
servicer should be reducing the scheduled principal balance of liquidated assets accordingly.
Thereafter, even if some principal balance remained outstanding, the scheduled interest should
be calculated on the reduced scheduled principal balance. Because there was not a finding with
respect to timely remittance of liquidation proceeds to the Trust, we assume that this was not an
issue.

With respect to the OIG recommendations we will do the following:

1. We will issue a letter to all the commercial and multifamily servicers by July 31, 2000,
reemphasizing MBS Administration policy that the final recovery determination should be
completed during the month of asset liquidation, with the scheduled principal balance reduced to
zero.

2. The Agreed Upon Procedures work programs since early 1994 have included steps to verify
that the realized loss calculations are prepared accurately and filed on a timely basis. This step is
also included in the current standardized work program, a copy of which is attached.

Part II - Finding
The Special Servicer's Realized Loss Calculations Duplicated Prior Pool Value Reductions

Recommendations
3. Ensure that future PSAs make clear that the calculations of realized losses should take into
   account previously taken pool value reductions.

4. Issue a letter to the special servicers requesting them to identify, in future realized loss
   calculations, pool value reductions amounts already taken.

5. Issue a letter to the trustees requesting them to inform the FDIC and the certificateholders of
   pool value reductions included in the reported realized loss calculations.

Response

Based on the information presented in the OIG report, we concur with the finding, including the
statement that there is no dollar effect related to the reporting by the special servicer. It appears
based on the information presented that the special servicer's realized loss calculations were



Note: The attachment referred to above is not included.
                                                 10
prepared in accordance with the requirements of the PSA. We believe that the PSA is clear with
respect to the inclusion of pool value reductions in the calculation and reporting of realized
losses. As we read the finding, the OIG is really questioning whether the information is
presented in the Statement to Certificateholders in a manner that is most useful to the FDIC in
connection with the its calculation of internal loss reserves.

With respect to the OIG recommendations we will do the following:

1. In drafting future PSAs, we will consider the extent to which reporting by the trustee in
   monthly Statements to Certificateholders can or should be clarified to be most useful to
   investors, rating agencies and the FDIC.

2. We will issue a letter to the special servicers and trustees by July 31, 2000, requesting that
   monthly realized losses as reported in the Statements to Certificateholders be footnoted to
   show the amount of realized loss that resulted from pool value reductions. We will request
   this be done on a prospective basis, and that cumulative figures be reported if this can be
   determined without undue expense.

If you have any questions, please contact me at 202-898-6714.


Sincerely,




James R. Wigand
Deputy Director, Franchise and Asset Marketing

cc: Bruce Gimbel, OIG
    Dean Eisenberg, Internal Review




                                               11
                                                                                                                                APPENDIX II
                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   § the specific corrective actions already taken, if applicable;
   § corrective actions to be taken together with the expected completion dates for their implementation; and
   § documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report and subsequent discussions with management
officials.




                                                                      12
                                                                                      Documentation                      Management
 Rec.                                                                Expected        That Will Confirm        Monetary   Decision: Yes
Number      Corrective Action: Taken or Planned/Status            Completion Date      Final Action           Benefits      or No
          DRR will issue a letter to all the commercial and
          multifamily servicers re-emphasizing MBS
                                                                                     Letter to commercial
          Administration policy that the final recovery
  1                                                               August 31, 2000      and multifamily           $0          Yes
          determination should be completed during the
                                                                                           servicers
          month of asset liquidation, with the scheduled
          balance reduced to zero.
          Agreed Upon Procedures work programs include
                                                                                     Current Standardized
  2       steps to verify that realized loss calculations are        Completed                                   $0          Yes
                                                                                       Work Program
          prepared accurately and filed on a timely basis.
          In drafting future PSAs, DRR will consider the
          extent to which reporting by the trustee in monthly
                                                                                     Appropriate section
  3       Statements to Certificateholders can be clarified to    Date of next PSA                               $0          Yes
                                                                                       of future PSA
          be most useful to investors, rating agencies, and the
          FDIC.
          DRR will issue a letter to the special servicers and
          trustees by July 31, 2000, requesting that monthly
          realized losses as reported in the Statements to                              Letter to special
4 and 5                                                           August 31, 2000                                $0          Yes
          Certificateholders be footnoted to show the amount                         servicers and trustees
          of realized loss that resulted from pool value
          reductions.




                                                                         13
